   September 11, 2003




Cooperative
Threat Reduction



Solid Rocket Motor
Disposition Facility Project
(D-2003-131)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CTR                   Cooperative Threat Reduction
DFARS                 Defense Federal Acquisition Regulation Supplement
DSWA                  Defense Special Weapons Agency
DTRA                  Defense Threat Reduction Agency
FAR                   Federal Acquisition Regulation
IG DoD                Inspector General of the Department of Defense
RASA                  Russian Aviation and Space Agency
SOAE                  Strategic Offensive Arms Elimination
SRMDF                 Solid Rocket Motor Disposition Facility
             Office of the Inspector General of the Department of Defense
Report No. D-2003-131                                                  September 11, 2003
      (Project No. D2002LG-0219)

                         Cooperative Threat Reduction Program:
                             Solid Rocket Motor Disposition
                                     Facility Project

                                          Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
manage contracts and international programs should read this report. This report
discusses topics of significant congressional, national, and international interest.

Background. This report, which is one in a series requested by the Deputy Secretary of
Defense, evaluates DoD management of the Cooperative Threat Reduction (CTR) solid
rocket motor disposition facility project. Other reports in the series will cover additional
CTR projects and DoD organizational arrangements for the CTR Program. Specific
objectives of the CTR program are to destroy chemical, nuclear, and other weapons;
transport, store, disable, and safeguard weapons until their destruction; and establish
verifiable safeguards against proliferation of weapons of mass destruction.

DoD contracted with Lockheed Martin Advanced Environmental Systems for
$52.4 million to design, develop, fabricate, and test a closed burn, solid rocket motor
disposition facility for the Russian Federation in April 1997. That facility was to allow
Russia to eliminate 319 intercontinental ballistic missile canisters, 916 motor cases, and
17,494 metric tons* of solid rocket propellant by December 2002. Initially, the facility
was to be located in Perm, Russia, but was changed to Votkinsk (in the Udmurt
Republic), Russia, in February 1998, after environmental concerns in Perm. The solid
rocket motor disposition facility project required the burning of propellant from
disassembled motors and disposal of the by-products created by burning. The project
also included the elimination of motor cases, missile transport canisters, and launch
canisters in a manner consistent with requirements of the Strategic Arms Reduction
Treaty. As of April 2003, DoD had disbursed $99.7 million to assist Russia in the
disposal of solid rocket propellant and motor cases.

Results. Although the DoD spent $99.7 million to design and begin construction of a
facility that would eliminate solid rocket motors, Russian officials informed DoD in
January 2003 that Russia would not be able to provide the land allocation to support the
facility. Because of local opposition in the Udmurt Republic, that facility will not be
constructed. As a result, the United States may spend $44.9 million to build temporary
storage facilities for missiles and upgrade Russian capabilities for burning solid rocket
motors. According to Defense Threat Reduction Agency officials, between January 2003
and August 2003, the agency disbursed about $72,000 for maintenance and security of
buildings and other infrastructure that DoD had provided at the project site to ensure that
the DoD investment would be available to support other CTR projects in Russia.
*
    A metric ton equals 2,204.6 pounds.
Negotiating an agreement with Russia on the disposal of solid rocket motors should
ensure that DoD and Russia understand their respective responsibilities and
commitments. Determining the future of the facilities and equipment that DoD
purchased for the solid rocket motor disposition project will eliminate the need for
securing those items. In addition, the Defense Threat Reduction Agency could improve
its management of CTR projects by including a risk mitigation strategy in written
acquisition plans, implementing a milestone decision review and program baseline
process, and ensuring that project managers maintain documentation of actions they have
taken. (See the Finding section of the report for the detailed recommendations.)

On the positive side, the Defense Threat Reduction Agency has taken several steps to
reduce DoD risks in the execution of ongoing and future projects. One initiative
undertaken in conjunction with the Office of the Under Secretary of Defense for Policy is
the development of Joint Requirements Implementation Plans. The Defense Threat
Reduction Agency has also issued instructions to ensure that acquisition plans are
retained and contracting officer’s representative files are maintained. In addition, the
Defense Threat Reduction Agency has implemented a phased approach to project
execution to further reduce DoD risks. For solid rocket motors, the Defense Threat
Reduction Agency has shifted the risk to Russia by agreeing to reimburse Russia after the
propellant is burned.

Management Comments and Audit Response. Comments from the Deputy Under
Secretary of Defense (Technology Security Policy and Counterproliferation) and the
Director, Defense Threat Reduction Agency were partially responsive. Although not
required to comment, the Assistant to the Secretary of Defense (Nuclear and Chemical
and Biological Defense Programs) agreed with our recommendations to the Defense
Threat Reduction Agency, noting that policies have already been implemented and will
continue to be followed and expanded upon. Based on comments from the Deputy Under
Secretary of Defense, we deleted the draft recommendation to provide written plans to
the Defense Threat Reduction Agency that include requirements, priorities, budgets, and
schedules for the CTR Program. We will address that recommendation, as needed, in our
review of CTR organizational arrangements.

Although management has taken positive actions, the comments are only partially
responsive. The Deputy Under Secretary of Defense (Technology Security Policy and
Counterproliferation) and the Russian Aviation and Space Agency have completed
negotiations to amend the Strategic Offensive Arms Elimination-Russia implementing
agreement to establish the responsibilities and commitments of each party for the
disposal of solid rocket motors. We request that the Deputy Under Secretary of Defense
forward a copy of that amendment after it has been signed. The Director, Defense Threat
Reduction Agency needs to provide the written guidelines that describe the process to be
used, including guidelines for designating an appropriate milestone decision authority
commensurate with the value, complexity, and level of congressional interest for each
CTR project. We request that the Deputy Under Secretary and Director, Defense Threat
Reduction Agency provide these copies by November 10, 2003. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete comments.
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Finding
     Facility to Dispose of Solid Rocket Motors                        4

Appendixes
     A.   Scope and Methodology                                        20
     B.   Prior Coverage                                               21
     C.   Infrastructure at the Project Site, Votkinsk, Russia         23
     D    Report Distribution                                          26

Management Comments
     Under Secretary of Defense for Policy Comments                    29
     Defense Threat Reduction Agency Comments                          32
     Assistant to the Secretary of Defense (Nuclear and Chemical and
        Biological Defense Programs)                                   34
Background
    On March 18, 2002, the Deputy Secretary of Defense requested that the Office of
    Inspector General of the Department of Defense (IG DoD) review the Cooperative
    Threat Reduction (CTR) projects that rely on Russian assurances and are
    vulnerable to misuse. This report discusses the solid rocket motor disposition
    facility (SRMDF) project. We will continue to evaluate other CTR projects that
    rely on Russian assurances and review the organizational arrangements between
    the CTR Policy office within the Office of the Under Secretary of Defense for
    Policy and the CTR Directorate at the Defense Threat Reduction Agency (DTRA).

    To reduce the threat posed by the weapons of mass destruction that remain in the
    territory of the former Soviet Union, Congress enacted Public Law 102-228
    (section 2551 [note], title 22, United States Code), “Soviet Nuclear Threat
    Reduction Act of 1991,” December 12, 1991. Public Law 102-228 designates
    DoD as the executive agent for the CTR Program. Public Law 102-228 and
    subsequent laws that continue the CTR Program are commonly referred to as
    Nunn-Lugar legislation. Objectives of Public Law 102-228 are to destroy
    chemical, nuclear, and other weapons; transport, store, disable, and safeguard
    weapons until their destruction; and establish verifiable safeguards against
    proliferation of weapons of mass destruction. From FY 1992 through FY 2003,
    Congress appropriated $5.1 billion for the CTR Program. With those funds, DoD
    provided assistance to Armenia, Azerbaijan, Belarus, Georgia, Kazakhstan,
    Kyrgyzstan, Moldova, Russia, Tajikstan, Turkmenistan, Ukraine, and Uzbekistan.

    Framework for Assistance. DoD provides assistance to countries of the former
    Soviet Union through umbrella agreements and implementing agreements. The
    umbrella agreement with Russia, signed on June 17, 1992, establishes the overall
    framework under which the United States provides assistance to Russia. The
    umbrella agreement, which was to expire in June 1999, was extended by a
    protocol in June 1999 for an additional 7 years. The implementing agreements,
    signed between DoD and designated executive agents of countries of the former
    Soviet Union, outline the type and amount of assistance the United States will
    provide. Generally, implementing agreements have been amended each year to
    increase the funding. The SRMDF project is managed under an implementing
    agreement commonly referred to as the Strategic Offensive Arms Elimination-
    Russia (SOAE-Russia) implementing agreement.

    Russian Executive Agents. DoD entered into an implementing agreement with
    Russia’s Committee for Defense Industries on August 26, 1993. On February 11,
    1998, the implementing agreement was amended to transfer executive agent
    responsibility to the Ministry of Economics. Russia eliminated the Ministry of
    Economics in 2000 and moved executive agent responsibility to the Russian
    Aviation and Space Agency (RASA). On August 30, 2002, DoD renewed an
    implementing agreement with RASA to continue CTR Program assistance.

    DoD Program Management. The Office of the Under Secretary of Defense for
    Policy develops, coordinates, and oversees implementation of policy for the CTR
    Program, including the negotiation of implementing agreements through the
    Deputy Under Secretary of Defense (Technology Security Policy and


                                        1
           Counterproliferation). The Office of the Under Secretary of Defense for
           Acquisition, Technology, and Logistics manages the execution and
           implementation of CTR projects after implementing agreements are negotiated
           through the Assistant to the Secretary of Defense (Nuclear and Chemical and
           Biological Defense Programs).1 The Defense Nuclear Agency, which became the
           Defense Special Weapons Agency (DSWA) in June 1995, managed CTR projects
           until October 1998. Since then, the CTR Directorate, DTRA, has managed the
           day-to-day implementation of the CTR Program. DTRA operates under the
           authority, direction, and control of the Under Secretary of Defense for
           Acquisition, Technology, and Logistics.

           Disposal of Solid Rocket Motors. In September 1994, DoD and Russia began
           exchanging ideas and technical data to define the requirements for destroying
           solid rocket motors from SS-24 and SS-25 intercontinental ballistic missiles and
           SS-N-20 submarine-launched ballistic missiles. Russia needed assistance with the
           disposal of solid rocket motors in order to meet its anticipated obligations under
           the Strategic Arms Reduction Treaty. After construction of the SRMDF, a DTRA
           contractor would extract propellant from motors by burning them in the SRMDF;
           dispose of the by-products formed by the burning process; and destroy motor
           cases, missile transport canisters, and launch canisters in a manner consistent with
           treaty requirements.2

           Design and Construction of the SRMDF. After receiving approval from the
           Office of the Under Secretary of Defense for Acquisition and Technology (now
           Acquisition, Technology, and Logistics), DSWA awarded a contract to Lockheed
           Martin Advanced Environmental Systems (Lockheed Martin) for a facility in
           Perm, Russia, to dispose of solid rocket motors. In February 1998, DoD and
           Russia agreed to move the facility to Votkinsk, Russia, in the Udmurt Republic.
           Eventually, DTRA would reduce the scope of that contract, allow the contract to
           expire, and award separate contracts for the design, site preparation, and
           construction of the SRMDF. According to DTRA records, DoD costs to design
           and construct the SRMDF totaled $99.7 million through April 2003.

                    Contract for the SRMDF. In April 1997, DSWA awarded contract
           DSWA01-97-C-0068 to Lockheed Martin for $52.4 million to design, develop,
           fabricate, and test a facility in Perm, capable of eliminating 319 intercontinental
           ballistic missile canisters, 916 motor cases, and 17,494 metric tons of solid rocket
           propellant. In addition, DSWA exercised two options for the installation of or
           upgrades to utility services and roads from existing points to interfaces inside the
           SRMDF project site. Initial scheduling of contract work was to ensure disposal of
           solid rocket motors by 2002.

                   According to DTRA officials, in November 2000 the acquisition strategy
           for the SRMDF project changed, reducing the scope of work on contract

1
    DoD did not staff the position of the Assistant to the Secretary of Defense (Nuclear and Chemical and
    Biological Defense Programs) between 1998 and 2001.
2
    For intercontinental ballistic missiles subject to the Strategic Arms Reduction Treaty, “Protocol on
    Procedures Governing Conversion or Elimination,” July 31, 1991, requires that the rocket stages be
    destroyed by explosive demolition or burning, if the solid fuel has not been removed. Also, the motor
    cases must be crushed, flattened, cut into two pieces, or destroyed by explosion.

                                                       2
     DSWA01-97-C-0068 to design-only. In January 2001, Lockheed Martin
     transferred its assets in Lockheed Martin Advanced Environmental Systems to
     EnergoTech, LLC (EnergoTech). After DTRA made a business decision to let the
     contract expire, it notified EnergoTech in November 2001 that additional funds
     would not be provided for the contract. DTRA then modified the contract for
     closeout in March 2002, requesting that EnergoTech submit the SRMDF design as
     is, as of November 5, 2001. According to its records, DTRA disbursed
     $92 million on contract DSWA01-97-C-0068 through April 2003.

             Contract to Complete Design. To complete the SRMDF design, DTRA
     contracted with Versar, Incorporated (Versar), through Air Force Materiel
     Command contract F41624-01-D8552 in November 2001. In March 2002, DTRA
     also tasked Versar to monitor land allocation activities for the SRMDF.
     According to DTRA officials, Versar completed the design for the SRMDF in
     December 2002. According to its records, DTRA disbursed $4.9 million to
     Versar on contract F41624-01-D-8552 through April 2003.

             Contract for Facility Support Infrastructure. After the Udmurt
     Republic issued a decree to start construction of items not connected with
     SRMDF technology, DTRA awarded contract DTRA01-01-C-0053 to
     EnergoTech in August 2001 to finish constructing infrastructure and preparing the
     SRMDF project site. Site preparation included installation of infrastructure
     elements and resources for communications, electrical power, heating, natural gas,
     perimeter lighting and security, and sanitary waste and water. In addition,
     EnergoTech was required to complete sections of the road and rail systems that
     had not been completed under contract DSWA01-97-C-0068. However,
     following the decision not to provide additional funds for contract
     DSWA01-97-C-0068, DTRA terminated contract DTRA01-01-C-0053 on
     November 6, 2001. A description of infrastructure items, costs, and photographs
     of the SRMDF project are in Appendix C. According to its records, DTRA
     disbursed $1.7 million on contract DTRA01-01-C-0053 through April 2003.

             Contract for Construction. After a competition among contractors with
     existing indefinite quantity contracts, DTRA selected Bechtel National, Inc.
     (Bechtel) to construct, and start-up the SRMDF. However, Bechtel could not
     begin construction until Russia provided land for the SRMDF. To begin
     construction immediately following the issuance of land, and to limit additional
     expenditures, DTRA developed a three-phased plan. The first phase, which
     included pre-construction planning, was awarded to Bechtel on contract
     DTRA01-01-D-0011 in August 2002. According to its records, DTRA disbursed
     $1.1 million on that contract through April 2003.


Objectives
     Our overall objective was to review the CTR project to design and construct a
     disposal facility for solid rocket motors. Specifically, we evaluated management
     of the SRMDF project designed for Russia, and controls over that project. See
     Appendix A for a discussion of the scope and methodology and Appendix B for
     prior coverage.


                                         3
           Facility to Dispose of Solid Rocket
           Motors
           Although the United States disbursed $99.7 million on the SRMDF
           project, the project site will not be used to destroy solid rocket motors.
           The CTR project to design and construct the SRMDF began in 1997 and in
           January 2003, Russian officials informed DoD that Russia would not
           provide the land allocation to support the facility. That condition occurred
           because the implementing agreement with Russia did not specifically
           address the SRMDF project or responsibilities for obtaining the land, and
           DoD did not have adequate controls in place to mitigate risk when
           contracting for and managing the project. Because Russia still needs to
           destroy solid rocket motors in accordance with the Strategic Arms
           Reduction Treaty, the United States may spend $44.9 million to build
           temporary storage facilities for missiles and upgrade Russian capabilities
           for burning solid rocket motors. Also, according to DTRA officials,
           between January 2003 and August 2003, the agency disbursed about
           $72,000 for maintenance and security of buildings and other infrastructure
           DoD had provided at the SRMDF project site while the Office of the
           Under Secretary of Defense for Policy evaluated options for the future of
           the SRMDF design documents and infrastructure items.


Acquisition Requirements
    The Federal Acquisition Regulation (FAR) and Defense Federal Acquisition
    Regulation Supplement (DFARS) contain contracting requirements for
    DoD Components.

    FAR Subpart 7.1, “Acquisition Plans,” requires that Federal agencies perform
    acquisition planning for all acquisitions, including construction. It requires the
    acquisition plans to identify milestones at which decisions should be made in
    order to attain acquisition objectives. These objectives are to be described in the
    plan’s statement of need. Any known cost, schedule, capability, or performance
    constraints are to be included in the acquisition plan. Technical, cost, and
    schedule risks are to be described in the plans to mitigate risks along with the
    consequences of the agency’s failure to accomplish the mitigation efforts. The
    acquisition plans are also to include proposed resolution of environmental issues
    and any environmentally related requirements to be included in solicitations and
    contracts.

    The DFARS contains requirements for acquisition plans and contracting officer’s
    representatives. DFARS Subpart 207.1, “Acquisition Plans,” requires written
    acquisition plans for production or services, including construction, estimated to
    cost a total of $30 million or more for all years, or $15 million or more for any
    fiscal year. DFARS Subpart 201.6 “Contracting Authority and Responsibilities,”
    requires that contracting officer’s representatives maintain a file for each contract
    that contains documentation of actions taken according to the authority delegated
    by the contracting officer.


                                          4
State of the Solid Rocket Motor Disposition Facility Project
           Although DoD disbursed $99.7 million on the CTR project from May 1997
           through April 2003 for the design and pre-construction activities of the SRMDF,
           Russian officials informed DoD in January 2003 that Russia could not provide the
           land allocation to support the facility in Votkinsk because of regional political
           issues and environmental concerns. DoD Components had been aware of
           environmental concerns impacting the land allocation for the SRMDF since at
           least January 1997, when DoD started evaluating contract proposals. Those
           concerns continued until Russia officially stopped the project in January 2003.

           Contract Proposal Evaluation. DoD Components had been aware of potential
           issues associated with the SRMDF since at least January 1997, when DSWA
           started evaluating proposals for destroying solid rocket motors in Russia.
           Initially, the technical evaluation panel rated most elements of the Lockheed
           Martin proposal for a closed burn facility as a “high” risk, meaning that there
           would likely be serious disruption of schedule, increase in cost, or degradation of
           performance.3 The technical evaluation panel concluded that the closed burn
           process was immature, because it had not been used in production rate
           demilitarization of solid rocket motors or tested on a “strategic-size high
           ammonium percholate motor.”4 Based on Lockheed Martin’s “best and final
           offer” for the SRMDF, the technical evaluation panel lowered the risk to
           “moderate,” meaning that potential disruption of schedule, increase in cost, or
           performance degradation would probably be overcome with special contractor
           emphasis and close monitoring by the Government. However, the panel identified
           environmental permitting problems as a risk. The panel stated that the
           environmental permit process in Russia could be much longer and more costly
           than projected by Lockheed Martin. In addition, the panel stated:
                         [A] major programmatic risk is whether the burn facility can be
                         (environmentally) permitted within SOW-compliant [Statement of
                         Work] timeframes. Based on U.S. regulations, this production facility
                         would have to be permitted as a CFR [Code of Federal Regulations] 40
                         Subpart X and thus [be] subject to an extensive series of trial burns and
                         rounds of public comments. In the U.S., the permitting process, if
                         successful, can take many years, and the track record of
                         companies/USG [U.S. Government] agencies applying for these permits
                         has been rather dismal. . . . The real issue is whether an environmental
                         permit will be as hard to obtain in Perm. Throughout the proposal, LM
                         [Lockheed Martin] attempts to minimize any anticipated difficulties by
                         stressing how clean their facility emissions really are and describing the
                         public outreach program they intend to use. LM has received a
                         lukewarm acknowledgement from the local environmental council that
                         confined burn can be considered as an “alternative option” – hardly a
                         ringing endorsement of their approach. Unfortunately, this is a political
                         rather than a technical issue and thus may be extremely difficult to


3
    The technical evaluation panel did not provide an overall rating to the initial contractor proposals.
4
    Ammonium percholate is an oxidizer used in solid rocket motors.



                                                         5
                         overcome and remain in compliance with the SOW schedule for motor
                         elimination.

           Warning From Russian Official. Before DSWA awarded the contract to
           dispose of solid rocket motors, the Chief, Main Directorate of International
           Military Cooperation, Russian Ministry of Defense (the Chief) expressed concern
           over awarding of a contract that used a closed burn system to dispose of solid
           rocket motors. In a letter dated April 14, 1997, to the director, On-Site Inspection
           Agency,5 the Chief stated that ecological and safety issues had caused serious
           concern among the public in Perm and on-site authorities, who, the Chief said,
           would block construction of the incineration test bed because of the obvious and
           visually observable negative effects on the environment closed burn produces. In
           addition, he warned that the opinion of the local administration and populace
           would have a decisive influence on the fate of the closed burn facility, and
           Russian federal authorities would not likely be able to change that situation. The
           Chief also cited a project to construct a chemical weapons destruction facility that
           was stopped by the local populace and authorities.

           Post-Award Period. DoD encountered problems obtaining environmental
           permits and the land allocation for the SRMDF project from December 1997 until
           Russia officially stopped the project in January 2003. Although Lockheed Martin
           was contracted to construct the SRMDF in Perm, the local government of Perm
           issued a referendum rejecting the facility in December 1997, following
           environmental concerns and a vote by the local population. Subsequently, the
           Russian Prime Minister signed a directive on December 29, 1997, moving the
           project from Perm to Votkinsk. The Deputy Assistant to the Secretary of Defense
           (CTR) accepted the Votkinsk site in February 1998.

                    Move to Votkinsk. According to DTRA officials, Votkinsk land would
           be allocated after Russian officials approved a feasibility study, which involved a
           technical, economic, and environmental impact analyses of the SRMDF project.
           The feasibility study was completed in May 1999 by a Russian design institute,
           with data provided by Lockheed Martin. After RASA received approvals from
           Russian regulatory agencies and environmental experts, RASA approved the
           feasibility study on July 31, 2001. According to DTRA officials, the local
           population in Votkinsk conducted public protests for environmental issues that
           resulted in the Udmurt Republic delaying a decision on land allocation until after
           the April 2002 city and district elections. With the decision on land allocation
           still pending, DoD officials questioned RASA officials on the timeframe for land
           allocation during the first Executive Review6 meeting between Russia and DoD in
           July 2002. RASA officials responded that the land would be allocated by the end
           of September 2002. According to DTRA officials, in September 2002, RASA
           was informed that the contractor was not authorized to mobilize or begin
           construction until Russia provided the land allocation documents.

5
    The Director, On-Site Inspection Agency, forwarded the letter to the Office of the Assistant to the
    Secretary of Defense (Nuclear and Chemical and Biological Defense Programs).
6
    DoD and Russian executive agents started meeting semi-annually in July 2002 to review CTR projects that
    rely on verbal, good faith obligations from Russia. During the meetings, Russian executive agents identify
    how they have used CTR assistance, why assistance is still needed, and what Russia is contributing to
    accomplish project goals.


                                                        6
                    RASA Letter on Land Allocation. DTRA officials stated that the initial
           indication that Russia would not be able to obtain the land allocation was in a
           letter from RASA dated October 17, 2002. In the letter, RASA suggested
           terminating the SRMDF project, stating that the Udmurt Republic presented
           unacceptable land allocation terms. In addition, RASA anticipated difficulty in
           obtaining a construction permit. On October 18, 2002, the SOAE-Russia program
           manager at DTRA telephoned the RASA department manager for the SRMDF to
           discuss the proposed termination of the SRMDF project. According to the SOAE-
           Russia program manager, the RASA department manager suggested moving the
           SRMDF project to another location. The SOAE-Russia program manager refused
           because relocating the project would increase costs and delay completion.

                   Executive Review in January 2003. At the January 2003 Executive
           Review that was attended by representatives from the IG DoD, the Director of the
           Missile Technologies Division, RASA, informed DoD officials that Russia
           officially recommended the SRMDF project be terminated. The Director stated
           that RASA had received a letter from the Udmurt Republic rejecting the land
           allocation proposal, primarily because of environmental opposition. The Director
           asked that DoD not compare the SRMDF situation to that of another CTR project
           that Russia did not use.7 He requested that DoD turn the SRMDF design over to
           Russia for potential future use.

                    Russia’s Official Response. The Director General of RASA provided the
           official Russian response to the Deputy Under Secretary of Defense (Technology
           Security Policy and Counterproliferation) in a letter dated January 31, 2003. The
           Director General stated that although Russia was not ruling out construction of the
           SRMDF in a different region, construction had been stopped because the local
           Udmurt government did not support the SRMDF. In addition, he stated that
           Russian regulations would not allow Russia to adopt a decision regarding land
           allocation without concurrence from the local government. He also cited risks
           associated with constructing the facility, stating that Russia had concerns over the
           operating capabilities and productivity of the SRMDF that could not be confirmed
           before its completion. The Director General also pointed to the length of time that
           U.S. contractors took to design the SRMDF, and stated that construction and
           commissioning timelines were unacceptable. According to the Director General,
           those timelines would not allow for the destruction of solid rocket motors to begin
           earlier than 2007, at best. The Director General suggested that RASA modify two
           open-air burn stands in Perm and Kemerovo, Russia, and complete construction
           on a closed, environmentally safe stand, which has been under construction in
           Perm for more than 10 years.




7
    As reported in IG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
    Propellant Disposition Project,” September 30, 2002, Russian officials stated that Russia used liquid
    propellant, which was intended for use at a facility that was constructed using CTR Program funds, for the
    Russian space program instead.



                                                       7
Managing Risks to the Solid Rocket Motor Disposition Project
     DoD disbursed $99.7 million on the SRMDF but was unable to complete the
     project because the SOAE-Russia implementing agreement does not specifically
     address the SRMDF project or responsibility for obtaining the land, and DoD did
     not have adequate controls to mitigate risk when contracting for and managing the
     project. Contracting areas that needed improvement include acquisition planning,
     contracting methods, and contractor requirements. Project management areas that
     needed improvement include plans that guide project reviews and decisions and
     documentation of project management efforts. Since the summer of 2000, DTRA
     has taken several actions to improve management of CTR projects.

     Implementing Agreement. Although the SRMDF project was managed under
     the SOAE-Russia implementing agreement, that implementing agreement does
     not specifically identify a project to destroy solid rocket motors or require Russia
     to provide the resources necessary for destroying its solid rocket motors. Officials
     from the Office of the Under Secretary of Defense for Policy stated that the
     SOAE-Russia implementing agreement sufficiently justifies the SRMDF project
     because the agreement specifies that DoD will provide assistance to facilitate the
     expeditious, safe, and environmentally sound elimination of strategic offensive
     arms, including intercontinental ballistic missiles. However, that implementing
     agreement does not specifically identify the SRMDF project and does not require
     Russia to obtain the permits or the land necessary to build and operate a facility to
     dispose of solid rocket motors or provide deadlines for obtaining those resources.
     Instead, the implementing agreement limits Russian responsibility to providing
     performance specifications and requirements for materials, services, and training
     to DoD. In addition, because the implementing agreement did not define the
     SRMDF and, according to DTRA officials, the Office of the Under Secretary of
     Defense for Policy provided no other written guidance on the SRMDF, there is no
     assurance that DSWA was provided adequate direction on the requirements for
     and limitations of the SRMDF.

     Management Action Taken. At the SOAE-Russia Program Management
     Review held in Moscow, Russia, in January 2003, RASA officials agreed to
     destroy the solid rocket motors. The Director of the CTR Program, DTRA,
     proposed that DoD negotiate a fixed fee for destroying each solid motor based on
     the operational costs of burning the motors. According to the Director, CTR
     Policy, a proposed amendment to the SOAE-Russia implementing agreement was
     provided to RASA on March 13, 2003. That proposed amendment establishes the
     responsibilities and commitments of DoD and RASA for the disposal of solid
     rocket motors and includes the number of rocket motors to be destroyed, the
     disposal timetable, and Russian and U.S. responsibilities. As of August 2003,
     DoD and RASA officials still needed to sign the proposed amendment to the
     SOAE-Russia implementing agreement and negotiate the amount DoD would pay
     for each missile that Russia destroyed.

     In conjunction with the Office of the Under Secretary of Defense for Policy,
     DTRA has developed Joint Requirements Implementation Plans, updated
     regularly, that define project requirements, assumptions, and milestones that are
     mutually agreed upon with the executive agents for Russia. The plans also


                                           8
provide a contracting approach, risk assessment and mitigation, and the
assignment of responsibilities for projects between DoD and the executive agents
for Russia.

Mitigating Risks. Neither DSWA nor DTRA adequately mitigated risks when
planning and contracting for the SRMDF project. Specifically, there are no
assurances that DSWA prepared an adequate acquisition plan. In addition,
contracts for the SRMDF project did not adequately protect the Government’s
interests. Also, there are no assurances that DTRA took adequate actions to
mitigate risks in managing the SRMDF project.

        Acquisition Plan. Neither the project manager nor the contract specialist
was able to locate an acquisition plan for the SRMDF project. Although they
were unable to find the acquisition plan, an official in the CTR Program
Directorate stated that an acquisition plan was most likely prepared for the
procurement of the SRMDF, as the DSWA acquisition office strictly enforced
acquisition plan requirements. However, without evidence of the acquisition plan,
there are no assurances that DSWA adequately identified, described, or considered
the risks associated with the acquisition of the SRMDF; developed adequate plans
to mitigate those risks; or described the consequences of failure to accomplish
those plans. In addition, there are no assurances that the acquisition plan
contained the DFARS requirement for a milestone chart of acquisition objectives.

        Management Actions Taken. In 2001 and 2002, DTRA took actions to
help ensure that acquisition plans were maintained and that managers developed
milestones for the acquisitions. In 1999, the Defense Contract Management
Command reviewed DTRA acquisition procedures and recommended early
involvement in the procurement process by contracting staff, and they also
recommended that DTRA document its acquisition planning. According to
DTRA officials, those recommendations led to new acquisition policy documents
and processes, including acquisition plans. DTRA published Acquisition
Management Policy/Procedure 01-03, “Contract File Index and Organization,”
June 14, 2001, which provides policy and procedures for filing contract-related
documents. The index requires that contracting staff maintain acquisition plans
and strategies in official contract files. Also, in October 2002, DTRA published
Policy Memorandum 02-02, “DTRA Major Programs (Revised),” and DTRA
Instruction 5000.03, “Implementing Instructions for Major Program Guidance,” to
implement defense acquisition system management guidance. The policy
memorandum states that DTRA needs to more rigorously manage the cost,
schedule, and performance of its acquisition programs.

DTRA Instruction 5000.03 provides a framework to manage programs and
projects and requires managers to identify cost, schedule, and performance
thresholds which, when not met, may endanger the program. The instruction
provides guidance, format, and actions to be taken when a program manager
submits a warning report to milestone decision authorities. The instruction also
describes an acquisition strategy that allocates requirements by dividing them into
blocks or phases of a program. DTRA program plans are to include key program
risks; the potential impact of those risks on program cost, schedule, and
performance; and actions for mitigating the risks. DTRA program plans are also



                                     9
to include the approach used by the program manager for identifying, analyzing,
mitigating, tracking, and controlling future program risks.

        Contracting. The contracts for the SRMDF did not adequately protect the
Government’s interest in the project. The initial contract for the SRMDF,
DSWA01-97-C-0068, was awarded for the complete design and construction of
the SRMDF project, and thus, did not have built-in milestone decision points. In
addition, that contract did not require contractors to monitor the progress of land
allocation activities. Versar was the first DoD contractor required to monitor the
progress of land allocation activities when contract F41624-01-D-8552 was
amended in March 2002.

               Contract Method. In 1997, contract DSWA01-97-C-0068 was
awarded to Lockheed Martin to procure a specific quantity of services, namely the
complete design and building of the SRMDF. DTRA paid Lockheed Martin
$17.5 million on that contract, through completion of the feasibility study in
May 1999. Lockheed Martin and its successor, EnergoTech, continued working
on the design and site preparation of the SRMDF for another 2 years at a cost of
$55 million, while Russian officials evaluated the study. In addition, after Russia
approved the feasibility study, DTRA paid $27.2 million to Bechtel, EnergoTech,
and Versar to complete the design, perform site preparation, and pre-construction
planning for the SRMDF through April 2003. If the contract had initially been
prepared in phases, each phase would have needed approval before the next phase
started.

                Management Action Taken. In 2000, DTRA began to change its
approach to contracting for major CTR services. The new approach uses
indefinite-delivery, indefinite-quantity contracts awarded to five companies:
Bechtel; Kellogg, Brown, and Root, Inc; Parsons Corporation; Raytheon
Company; and Washington Group International, Inc. Also, in 2002, DTRA began
using a three-phased approach to contracting in order to mitigate risks and allow
an exit strategy if problems persist. For example, when DTRA re-solicited the
SRMDF construction contract, the project manager structured the contract task
orders so Bechtel was initially tasked to complete pre-construction planning.
Afterwards, upon Russian allocation of the land, DTRA was to award another task
order for construction. After construction, Bechtel was to be tasked with the
remaining efforts necessary to complete and certify the SRMDF. According to
DTRA officials, the phased approach will be used on other major CTR projects.
At the January 2003 SOAE-Russia Program Management Review, the Director of
the CTR Program informed Russian officials that DTRA would reduce the
financial risks of executing new projects by using a three-phased approach.

                Contractor Requirements. SRMDF contracts did not require
contractors to monitor progress of land allocation activities until March 2002,
almost 5 years after the initial SRMDF contract. However, according to DTRA
officials, because of rising political difficulties in obtaining permits and the land
allocation, DTRA authorized EnergoTech to contract with Global Green to
develop a public outreach office in 2000. The intent of the public outreach was to
obtain public support and approval of documents to move the SRMDF forward.
Contract requirements to monitor land allocation for the project were not specified
until a March 15, 2002, addendum to the scope of work in contract


                                     10
           F41624-01-D-8552 with Versar. That addendum required Versar to monitor land
           allocation activities for the SRMDF and to assist in preparing the support
           documentation needed to obtain the land allocation decree for the project. In
           addition, Versar was required to make periodic site visits and meet with officials
           from the Russian Federation, the Udmurt Republic, the city of Votkinsk, and the
           Votkinsk district to assess progress in obtaining the land allocation decree. Versar
           was also required to make recommendations on how to successfully obtain the
           land allocation and to provide weekly status reports to DTRA. According to the
           weekly status reports provided by the DTRA project manager for the SRMDF,
           Versar employees met regularly with RASA officials, the Russian Security
           Council, committees of the Russian Duma, and officials from the Russian
           President’s office. As part of a mass media campaign, Versar also submitted
           articles promoting land allocation for the SRMDF project to the local and the
           central Russia newspapers. However, according to the progress reports, those
           efforts did not result in any progress on the land allocation.
           Project Management. Although the technical evaluation panel warned DSWA in
           January 1997 that the SRMDF project required close monitoring, there are no
           assurances that DTRA took adequate actions to mitigate risks in managing the
           SRMDF project until DTRA assigned a new SOAE-Russia program manager and
           project manager for the SRMDF in September 2001. DTRA project plans for the
           SRMDF did not adequately address efforts to mitigate risks, and DTRA could
           provide little evidence of its efforts to manage the SRMDF project.

                    Project Plans. Although DTRA began preparing annual project plans for
           the SRMDF project in 1996, the project plans did not adequately address efforts to
           mitigate risks prior to September 2000. While DTRA project plans did not
           mention any risks until 2000, the April 2002 project plan for the SRMDF was the
           first plan that identified land allocation as a risk, 5 years after the contract was
           initially awarded.8 To mitigate that risk, the plan states that the construction
           portion of contract DTRA01-01-D-0011 would not be awarded until receipt of the
           land allocation and construction permits.

                   Project Manager Documentation. The project manager for the SRMDF
           project, who is the contracting officer’s representative, did not have complete
           documentation showing the history of previous actions taken to mitigate land
           allocation risks. Specifically, DTRA officials did not provide any evidence that
           Russia was ever asked to provide land for the SRMDF. The SRMDF project
           manager and the program manager for SOAE-Russia stated that the previous
           project manager maintained project management files on a lap top computer, but
           that those files had been erased. In addition, the project manager stated that the
           previous project manager did not transfer project files of contractual or project
           management documentation covering the history of the project. As such, they
           were unfamiliar with the actions and efforts of the previous manager to manage
           the SRMDF contracts and mitigate the risks associated with land allocation before
           September 2001, when the current project manager was hired.

                 Since September 2001, the SRMDF project manager did not fully
           document his efforts to mitigate the land allocation risk with Russian officials or
8
    DTRA officials did not provide SRMDF project plans for 1998 or 2001.



                                                    11
the progress that had been made to obtain the land allocation for the project.
Although the project manager stated that he had conducted regular meetings with
the Russians regarding land issues, he only provided trip reports for two meetings.
The first meeting occurred in December 2001 and the second occurred in
December 2002.

        Neither trip report indicates that DTRA asked Russia to provide the land
allocation by a specified date. Instead, the trip report for the December 2001
meeting states that the project manager held discussions on obtaining land with
officials from the Udmurt Republic, but does not indicate any results. The trip
report for the December 2002 meeting indicates that discussions centered only on
the need for Russia to make a decision on land allocation as DTRA needed to
make a decision soon on the future of the SRMDF. According to that trip report,
the project manager informed Votkinsk officials that DTRA would place the
project on hold unless there was a clear indication that the land allocation process
was moving forward. Also, the project manager explained to Udmurt Republic
officials that DTRA had reached a decision point for the SRMDF project that
depended on the outcome and timing of the land allocation decision. RASA
officials stated that Russia would take its own action to allocate land if the
Udmurt Republic refused to do so, but they stated that Russian allocation could
take a substantial period of time. Officials from the Votkinsk District believed it
would be “political suicide” for officials in the city of Votkinsk to request the land
allocation from Russia while leadership in the Udmurt Republic viewed the
SRMDF unfavorably. The mayor of Votkinsk stated that he had not received
strong support from RASA for the SRMDF, and he believed the public would
protest if land allocation were forced. Udmurt Republic officials stated that over
80 percent of the population was against the SRMDF because of perceived safety
issues and that the Udmurt officials would respond that the SRMDF should not be
constructed within the Udmurt Republic.

        DTRA procedures for maintaining contract and project files were unclear
and the project managers may not have been fully informed of the requirements
for maintaining their files. The memorandum from the contracting officer at
DSWA, “Designation of Contracting Officer’s Technical Representative
(COTR),” undated, does not list requirements for maintaining files. It does refer
to Defense Nuclear Agency Instruction 4105.2D, “Contract Administration
Planning, Authority, and Responsibility,” January 30, 1995, which defines the
authority of the contracting officer’s representative. However, because officials
from the Acquisition and Logistics Directorate, DTRA, were unable to locate that
instruction, there is no assurance that the instruction required contracting officers’
representatives to maintain their files. Also, according to officials in the
Acquisition and Logistics Directorate, the current project manager did not receive
an appointment as the contracting officer’s representative for contract
DSWA01-97-C-0068, because that contract was near completion when he became
the SRMDF project manager. As such, he was not formally briefed on his duties
as a contracting officer’s representative at that time. He did receive the standard
memorandum, “Contract Officer’s Representative Appointment,” dated
August 30, 2002, when he was appointed as the contracting officer’s
representative for contract DTRA01-01-D-0011, task order 0004. That
memorandum informed him of the requirement to maintain a file on the contract
in accordance with DTRA Acquisition Management Policy/Procedure # 01-05.


                                     12
           However, according to officials in the Acquisition and Logistics Directorate,
           DTRA Acquisition Management Policy/Procedure # 01-05 was never issued and
           the appropriate reference should have been Acquisition Management
           Policy/Procedure # 01-039 and Acquisition and Logistics Policy/
           Procedure # 02-04, “Contracting Officer Representatives,” December 26, 2001.
           Acquisition and Logistics Policy/Procedure # 02-04 states that contracting
           officers’ representatives are responsible for maintaining adequate records to
           sufficiently describe the performance of duties during the life of the contract and
           lists the types of documents the file should contain.

                   Management Action Taken. In April 2003, when officials in the
           Acquisition and Logistics Directorate became aware that its contracting officer’s
           representation memorandums cited a non-existent requirement, they issued a
           notice requesting that DTRA Acquisition and Logistics staff revise memorandums
           issued to contracting officers’ representatives. The revisions refer to Acquisition
           Management Policy/Procedure # 01-03 and Acquisition and Logistics
           Policy/Procedure # 02-04, which cite the requirements for maintaining files. The
           CTR Program Directorate still needs to establish procedures to ensure that project
           managers maintain their contracting officer’s representative files and document all
           correspondence and significant conversations with representatives of former
           Soviet Union countries.


Fund Use, Storage, and Options for the Solid Rocket Motor
  Project
           Because Russia is not going to allocate land for the SRMDF project, the
           $99.7 million disbursed for design and site preparation for the SRMDF will not be
           used to destroy solid rocket motors at Votkinsk. In addition, DoD has approved
           contracts to design temporary storage facilities in Perm for SS-24 and SS-25
           missiles if DoD determines that it is in the best interest of the United States to
           construct those storage facilities. Should DoD decide to provide assistance with
           the construction of the storage facilities, the design documents will provide the
           data required by local authorities to issue construction permits. The estimated
           cost of building the storage facilities and providing limited support to Russia for
           disposal of solid rocket motors is $44.9 million. Because the initial operating
           capability of the SRMDF was delayed, DoD agreed to assist Russia with its
           interim plans to burn motors at other facilities. Also, as of August 2003, the
           Office of the Under Secretary of Defense for Policy had not finalized options for
           the future of the SRMDF infrastructure items located in Votkinsk. Between
           January 2003 and August 2003, DTRA has disbursed $72,000 for maintenance
           and security of the buildings and other infrastructure that DoD provided at the
           SRMDF project site to ensure the DoD investment in buildings and infrastructure
           is available to support other CTR projects in Russia.

9
    Although Acquisition Management Policy/Procedure # 01-03 provides instructions to contracting staff on
    maintaining contract files, officials in the Acquisition and Logistics Directorate stated that contracting
    officer’s representatives should also maintain their files according to the indexing system in that
    instruction.



                                                       13
Fund Use. Because Russia is not going to allocate land for the SRMDF project in
Votkinsk, the $99.7 million disbursed for design and site preparation for the
SRMDF will not be used to destroy solid rocket motors. Had DoD used an
acquisition strategy that would have allowed for a phased approach and
milestones in the contracting process, it could have stopped the design effort and
withheld site preparation while Russia evaluated the feasibility study and
attempted to obtain the land. The above actions would have saved the United
States $82.2 million and provided DoD with an opportunity to fund other CTR
projects for dismantling weapons of mass destruction.

Storage and Burn Stand Upgrades. Because Russia delayed the decision on
providing land for the SRMDF, Russia needed additional storage for solid rocket
motors and other capacities for destroying those motors. In September 2002,
DTRA contracted with Washington Group International for the phase 1 design
upgrades to the open burn stand in Kemerovo, Russia. DTRA has designs for the
infrastructure to support the burn stands in Perm, but will not construct the storage
facilities until the Deputy Under Secretary of Defense (Technology Security
Policy and Counterprolifteration) makes a final decision on support for the burn
stands. After the designs were completed and the licenses were obtained,
Washington Group International was tasked to construct the facilities that were
needed to ensure that missile disassembly did not stop. In November 2002,
RASA requested that DTRA convert the open burn stands to semi-open burn
stands because of environmental requirements. In January 2003, DTRA and
RASA agreed that RASA should construct the semi-open burn stands. According
to an undated information paper on solid rocket motor disposition prepared by the
SOAE-Russia program manager, DTRA still needed to decide on the assistance
that would be provided for infrastructure and equipment necessary to operate the
semi-open burn stands. In addition, DTRA has proposed converting existing
missile storage facilities at Perm to missile and missile motor storage as a
contingency to allow continued missile disassembly. As of July 2003, DTRA
estimated the cost to design, license, and construct storage facilities and burn
stands in Perm was $44.9 million.

Management Actions Taken. Officials from the Office of the Under Secretary
of Defense for Policy stated that they are negotiating amendments to the SOAE-
Russia implementing agreement for Russia to minimize its storage requirements
by using semi-open burn stands at three locations. In addition, the officials stated
that the amendments would require RASA to secure the required construction
permits and land for the storage facilities before DoD concludes contracts for
construction of the storage facilities. The officials also stated that the
amendments would require Russia to pay maintenance and storage costs
beginning in October 2004.

Options for Design and Infrastructure. As of August 2003, DTRA had not
finalized options for the future of the SRMDF infrastructure items located in
Votkinsk. DTRA has consolidated all design documentation for the SRMDF,
distributed residual equipment to other CTR projects, and transferred the
administration and housing complex at Votkinsk to the CTR project for
disassembling and eliminating SS-25 missiles. DTRA still needs to decide the
future of the warehouse and administrative buildings at the SRMDF project site



                                     14
    and is evaluating their use on three other CTR projects. Those facilities were
    being secured against pilferage through a separate CTR contract.

            Project Documentation. The SRMDF project generated over
    10,000 technical and management documents for the design, construction, and
    operation of the SRMDF. Versar was tasked to transform all documents to
    electronic media in both English and Russian languages and place those
    documents in an electronic database. According to the SRMDF project manager,
    the tasking was originally meant to facilitate management of the SRMDF, but
    after the SRMDF project was halted, the tasking continued because the technology
    can be used in the United States and, if Russia cannot open burn its solid rocket
    motors, the plans can be used to build a closed burn facility in Russia. As of
    August 2003, Versar had completed the electronic archive according to DTRA
    officials.
            Government-Furnished Equipment. Items purchased by DTRA were
    being held in storage in the United States and Russia. Those items included
    computer hardware and software, equipment and furniture for project offices, and
    equipment and furniture for housing. DTRA planned to dispose of the equipment
    stored in the United States, consisting mainly of obsolete computer hardware and
    software, with the exception of laptop computers that could be used on other CTR
    projects. As of August 2003, DTRA had transferred the administration and
    housing complex and associated office equipment in Votkinsk to the CTR project
    for disassembling and eliminating SS-25 missiles. Also, DTRA had transferred
    other Government-furnished equipment in Votkinsk to Moscow where it is being
    stored for use on other CTR projects.

            SRMDF Facilities and Infrastructure. The existing SRMDF facilities
    and infrastructure include an administrative building, a warehouse, two potable
    water wells and fully furnished well houses, a 4-kilometer gravel access road, a
    power line and substation, and a natural gas pipeline to the site. The options for
    the facilities and infrastructure include moving and transferring the facilities to
    other CTR projects or using the facilities as a satellite maintenance facility,
    turning over or selling the facility and infrastructure to the local entity in
    Votkinsk, or abandoning or destroying the facility and infrastructure in-place. As
    of August 2003, DTRA had not finalized the options.


Conclusions
    Although DTRA disbursed $99.7 million for the CTR Program on design and site
    preparation of a facility to destroy solid rocket motors, DoD was informed that
    land and environmental permits would not be allocated for constructing the
    facility. DoD managers were aware of the environmental and political concerns
    surrounding closed burning of solid rocket motors before they contracted to
    design and construct a closed-burn disposition facility. Because of the alleged
    environmental concerns, residents of Perm, and then Votkinsk, rallied against the
    SRMDF in their communities. Also, the cost escalated while Russian agencies
    took 2 years to evaluate the feasibility study for the SRMDF. Although Russian
    agencies finally approved the feasibility study, environmental protests continued,


                                        15
    and RASA officials informed DoD that land and permits would not be provided
    for the SRMDF in Votkinsk. As of April 2003, DoD had disbursed $99.7 million
    for a facility that will not be constructed—almost twice the initial contract amount
    of $52.4 million that was awarded in April 1997 to design, build, and test the
    facility in Perm. That facility was to allow Russia to eliminate
    319 intercontinental ballistic missile canisters, 916 motor cases, and 17,494 metric
    tons of solid rocket propellant by December 2002. Because the destruction of
    solid rocket motors is a Russian obligation under the Strategic Arms Reduction
    Treaty, DoD will continue to assist Russia in destroying solid rocket motors. That
    assistance may include additional funding of $44.9 million for facilities to store
    missiles and burn solid rocket motors. In addition, DoD is negotiating a fixed fee
    to pay Russia for each solid rocket motor that Russia destroys.

    DoD could have better managed the risks associated with the SRMDF project in
    order to protect or reduce the U.S. investment. First, the SOAE-Russia
    implementing agreement should have stated Russian responsibilities, including
    timeframes, for approving the feasibility study and obtaining land and permits.
    Second, DoD needed to prepare acquisition plans that included milestone
    decisions based on Russian progress in meeting its obligations and on contract
    costs and contractor progress. Third, since CTR project managers are not located
    in Russia full-time, contracts for the design and construction of the SRMDF
    should have included requirements for monitoring land allocation activities from
    the start of the project. Fourth, project managers should have been required to
    maintain documentation on their actions to manage contracts for which they were
    given responsibilities as contracting officers’ representatives. This is especially
    important because several CTR project managers are military officers, subject to
    being transferred to other assignments.

    The SRMDF project points out some of the uncertainties that can occur when
    working with foreign governments. For example, DoD needed political support in
    Russia at the national, republic, and local levels for the SRMDF project to be
    successful. For projects where support is needed at multiple political levels, the
    foreign government may be better able to deal with local politics. Thus, it may be
    preferable for Russia to be primarily responsible for destroying its own weapons
    of mass destruction and for DoD to perform support functions. DTRA uses a
    similar arrangement for the CTR project to destroy nuclear-powered ballistic
    missile submarines. Specifically, for that CTR project, Russian companies
    dismantle the submarines and DoD pays the Russian companies as dismantlement
    progresses. DoD and Russia are considering using a similar arrangement for the
    destruction of solid rocket motors. DoD should also consider using similar
    arrangements for other CTR projects as well. In addition to reducing DoD risks,
    those arrangements would place more responsibility on Russia for destroying its
    weapons.


Recommendations, Management Comments, and Audit
  Response
    Deleted Recommendation. As a result of comments from the Deputy Under
    Secretary of Defense (Technology Security Policy and Counterproliferation), we


                                        16
deleted Recommendation 1.c. We will address that recommendation, as needed,
as part of our review of CTR organizational arrangements.

1. We recommend that the Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation):

      a. Prepare and negotiate a written implementing agreement with the
Russian Aviation and Space Agency that establishes the responsibilities and
commitments of each party for the disposal of solid rocket motors. At a
minimum, the implementing agreement should include:

               (1) The number of rocket motors to be destroyed.

               (2) A timetable for the disposal of solid rocket motors.
              (3) Commitments from Russia to assure responsibilities for
destroying solid rocket motors.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred, stating that negotiations have
been completed with Russia on amending the SOAE-Russia implementing
agreement. The amended agreement will commit RASA to destroying all SS-24
rail-mobile missiles according to the Strategic Arms Elimination Treaty by
December 31, 2008, and all SS-25 road-mobile missiles by December 31, 2016.
The amendment will also commit Russia to modernizing burn stands at Kemerovo
and Perm, dedicating those stands to burning propellant-filled motors from SS-24
and SS-25 missiles, and minimizing storage needs for rocket motors by burning
SS-24 and SS-25 motors at Perm, Kemerovo, or Biysk. In addition, the
amendment will commit Russia to taking actions necessary to secure permits and
land allocations for modernizing and using the burn stands at Kemerovo and
Perm, constructing any facilities required to store missiles, and beginning on
January 1, 2005, maintaining and storing SS-24 and SS-25 missiles at facilities
constructed or acquired with DoD assistance. The Deputy Under Secretary has
verbal agreement with RASA on the amendment and hopes to have it signed in
the near future.

      b. Expedite the determination of the future of the facilities and
equipment purchased for the solid rocket motor disposition project.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred, stating that DTRA is
implementing its SRMDF infrastructure closeout plan. The Deputy Under
Secretary acknowledged that it is taking longer than expected to analyze options
for the two buildings at the project site.

Audit Response. The comments from the Deputy Under Secretary were partially
responsive. The Deputy Under Secretary did not provide a date when the
amended implementing agreement would be signed. In response to the final
report, we request that the Deputy Under Secretary provide a copy of the amended
agreement, signed by the Russian Aviation and Space Agency.



                                    17
2. We recommend that the Director, Defense Threat Reduction Agency:

       a. Prepare acquisition plans before issuing solicitations and contracts
for Cooperative Threat Reduction projects, in accordance with Federal
Acquisition Regulation Part 7, “Acquisition Plans,” to include:

              (1) Identifying risks that may exist, such as former Soviet
Union countries not being able to provide the necessary resources to
complete the project.

               (2) Specifying procedures to mitigate those risks.

               (3) Developing a milestone chart of acquisition objectives.

Management Comments. The Director, DTRA concurred and stated that since
2001, DTRA has been preparing acquisition plans before issuing solicitations and
contracts for CTR projects and would continue the practice. Although not
required to comment, the Assistant to the Secretary of Defense (Nuclear and
Chemical and Biological Defense Programs) agreed with our recommendation.

Audit Response. The comments from the Director, DTRA are partially
responsive. The comments did not describe how acquisition plans for CTR
projects identify risks that may exist or how procedures to mitigate those risks are
specified. In response to the final report, we request that the Director, DTRA
explain the procedures being used to ensure that all acquisition plans for CTR
projects identify the project risks and risk mitigation procedures and provide an
example of such an acquisition plan for a current or planned CTR project.

       b. Design and implement a milestone decision review and program
baseline process for Cooperative Threat Reduction projects, as described in
Defense Threat Reduction Agency Instruction 5000.03, “Implementing
Instructions for Major Program Guidance.” That process should include
guidelines for designating an appropriate milestone decision authority
commensurate with each Cooperative Threat Reduction project’s value,
complexity, or level of congressional interest.

Management Comments. The Director, DTRA concurred, noting that in 2000,
DTRA began using contracts that provide decision points and later implemented
phased contracting, which provided even more decision points during project
execution. Also, the Director commented that DTRA recently established its
process for major acquisition programs, including one CTR project—the
Chemical Weapons Destruction Facility. Although not required to comment, the
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological
Defense Programs) agreed with our recommendation. The Assistant to the
Secretary of Defense also commented that the new Deputy Assistant to the
Secretary of Defense for Chemical Demilitarization and Threat Reduction is
discussing the mechanics of a new, broader CTR decision process.

Audit Response. The comments from the Director, DTRA are partially
responsive. In response to the final report, we request that the Director, DTRA
provide the written guidelines that describe the process to be used, including


                                     18
guidelines for designating an appropriate milestone decision authority
commensurate with the value, complexity, and level of congressional interest for
each CTR project.

      c. Establish procedures to ensure that project managers in the
Cooperative Threat Reduction Directorate:

              (1) Maintain all necessary documents and correspondence.

              (2) Document actions taken as the contracting officer’s
representative.

              (3) Document significant conversations with representatives of
former Soviet Union countries.
Management Comments. The Director, DTRA concurred, stating that DTRA is
developing a training program to ensure the full implementation of those
procedures. Although not required to comment, the Assistant to the Secretary of
Defense (Nuclear and Chemical and Biological Defense Programs) agreed with
our recommendation.




                                   19
Appendix A. Scope and Methodology
   We reviewed DoD methods and policies used to administer the CTR Program,
   which included program, project, and financial management information. The
   review included provisions of Nunn-Lugar legislation, international agreements,
   the FAR, DFARS, and DoD directives. The documentation reviewed was dated
   from July 1991 through August 2003.

   We conducted interviews with officials from the Office of the Under Secretary of
   Defense for Policy and DTRA. We also visited Russia to observe sessions
   between DoD officials, Russian officials, and representatives from
   U.S. contractors.

   We performed this audit from October 2002 through August 2003 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program in this audit.

   We evaluated DoD management of the CTR Program to design and construct the
   SRMDF for Russia. Specifically, we identified and analyzed requirements,
   policy, and guidance that DoD and DTRA officials established and implemented
   to provide assistance to Russia. The review included an examination of available
   project documentation and financial data, the Strategic Arms Reduction Treaty I,
   the Strategic Arms Reduction Treaty II, and an evaluation of the umbrella
   agreement and the SOAE-Russia implementing agreement between DoD and
   Russia. We also examined the project implementation process of the CTR
   Program and compared the acquisition management procedures against
   requirements listed in the FAR and DFARS.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the Centralized Accounting and Financial Resource
   Management System, which accounts for DTRA funds, because that was outside
   the scope of our review. To support the amount that the United States disbursed
   for the SRMDF project, we relied on data from that system. Inadequate controls
   in the Centralized Accounting and Financial Resource Management System could
   affect the disbursements included in this report.




                                      20
Appendix B. Prior Coverage
   During the last 5 years, the General Accounting Office (GAO) and the IG DoD
   has issued 15 reports discussing the Cooperative Threat Reduction Program
   including congressional testimonies. Unrestricted GAO reports can be accessed
   over the Internet at http://www.gao.gov. IG DoD reports can be accessed at
   http://www.dodig.osd.mil/audit/reports.


GAO
   GAO Report No. GAO-03-1008R, “FY 2004 Annual Report on the Cooperative
   Threat Reduction Program, July 18, 2003

   GAO Report No. GAO-03-627R, “FY 2003 Annual Report on the Cooperative
   Threat Reduction Program,” April 8, 2003

   GAO Report No. GAO-03-526T, “Weapons of Mass Destruction: Observations
   on U.S. Threat Reduction and Nonproliferation Programs in Russia,” March 5,
   2003

   GAO Report No. GAO-03-341R, “Cooperative Threat Reduction Program Annual
   Report,” December 2, 2002

   GAO Report No. GAO-01-694, “Cooperative Threat Reduction: DoD Has
   Adequate Oversight of Assistance, but Procedural Limitations Remain,”
   June 19, 2001

   GAO Report No.NSIAD-00-138, “Biological Weapons: Effort to Reduce Former
   Soviet Threat Offers Benefits, Poses New Risks,” April 28, 2000

   GAO Report No. NSIAD-00-40, “Cooperative Threat Reduction: DoD’s 1997-98
   Reports on Accounting for Assistance Were Late and Incomplete,”
   March 15, 2000

   GAO Report No. T-NSIAD/RCED-00-119, “Weapons of Mass Destruction:
   U.S. Efforts to Reduce Threats From the Former Soviet Union,” March 6, 2000

   GAO Report No. RCED/NSIAD-00-82, “Nuclear Nonproliferation: Limited
   Progress in Improving Nuclear Material Security in Russia and the Newly
   Independent States,” March 6, 2000

   GAO Report No. NSIAD-99-76, “Weapons of Mass Destruction: Effort to
   Reduce Russian Arsenals May Cost More, Achieve Less Than Planned,”
   April 13, 1999




                                     21
IG DoD
    IG DoD Report No. D-2003-059-T, “Statement of David K. Steensma, Deputy
    Assistant Inspector General for Auditing, Office of the Inspector General of the
    Department of Defense to the House Committee on Armed Services on
    U.S.-Russian Cooperative Threat Reduction and Non-Proliferation Programs,”
    March 4, 2003

    IG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
    Propellant Disposition Project,” September 30, 2002

    IG DoD Report No. D-2002-033, “Management Costs Associated With the
    Defense Enterprise Fund,” December 31, 2001

    IG DoD Report No. D-2001-074, “Cooperative Threat Reduction Program,”
    March 9, 2001

    IG DoD Report No. D-2000-176, “Defense Enterprise Fund,” August 15, 2000




                                        22
Appendix C. Infrastructure at the Project Site,
            Votkinsk, Russia
    According to the SRMDF project manager, the existing SRMDF facilities and
    infrastructure include an administrative building, a warehouse, two potable water
    wells and fully furnished well houses, a 4-kilometer gravel access road, a power
    line and substation, a natural gas pipeline to the site, and other equipment. As of
    March 2003, DTRA stated that it had disbursed $14.6 million to construct those
    items. According to the project manager, DTRA could reuse the administrative
    buildings and other equipment, valued at about $900,000, for other CTR projects.
    The following figures show facilities and infrastructure at the site.




    Figure C-1. Administrative building (Building 5) during construction




                                        23
Figure C-2. Warehouse (Building 14) during construction




Figure C-3. One of the well houses during construction




                                 24
Figure C-4. Portion of the 4-kilometer gravel access road




Figure C-5. Placement of natural gas pipeline




                                 25
Appendix D. Report Distribution

Office of the Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
     Programs)
     Deputy Assistant to the Secretary of Defense (Chemical Demilitarization and
        Threat Reduction)
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Policy)
     Deputy Under Secretary of Defense (Technology Security Policy and
        Counterproliferation)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Unified Command
Commander, U.S. European Command

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Terrorism, Nonproliferation and Human Rights,
  Committee on International Relations




                                        27
Under Secretary of Defense for Policy
Comments




                       29
Final Report
 Reference




Deleted




               30
31
Defense Threat Reduction Agency
Comments




                     32
33
Assistant to the Secretary of Defense (Nuclear
and Chemical and Biological Defense Programs)
Comments




                      34
35
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Lynne M. Champion
Mason A. Kaur
David L. Leising
Susann L. Cobb
